                                   OIG Audit Report No. 08-05 





AUDIT OF NARA'S COMPLIANCE WITH THE 

  FEDERAL INFORMATION SECURITY 

    MANAGEMENT ACT FOR FY 2007 


          OIG Report No. 08-05 


             March 20, 2008 

                                                                                         OIG Audit Report No. 08-05


  AUDIT OF NARA'S COMPLIANCE WITH THE FEDERAL INFORMATION 

              SECURITY MANAGEMENT ACT FOR 2007 


                                           TABLE OF CONTENTS 


CHAPTER                                                                                                           PAGE

EXECUTIVE SUMMARY ................................................................................................. 1 


INTRODUCTION ...............................................................................................................4 


COMPUTER SECURITY INCIDENT RESPONSE CAPABILITY. .................................6 


NARA CERTIFICATION AND ACCREDITATION PROCESS ................................... 17 


CONTINGENCY PLANNINGIDISASTER RECOVER ................................................ .25 


PROGRAM-LEVEL PLAN OF ACTION AND MILESTONES PROCESS ................. .30 


SECURITY AWARENESS TRAINING FOR INDIVIDUALS WITH SIGNIFICANT 

SECURITY RESPONSIBILITIES ................................................................................... .32 


PRIVACY PROGRAM ............ ~ ........................................................................................34 


APPENDIX A. IT SYSTEMS REVIEWED AND RESULTS OF THE REVIEW ........ .36 





                                                      Page i 

                                   National Archives and Records Administration
                                                                     OIG Audit Report No. 08-05


EXECUTIVE SUMMARY

Infonnation and the systems that process it are among the most valuable assets of any
organization. Adequate security of these assets is a fundamental management
responsibility. The Federal Infonnation Security Management Act (FISMA) sets forth a
comprehensive framework for ensuring the effectiveness of security controls over
infonnation resources supporting federal operations and assets.

FISMA requires the head of each agency to: (a) provide infonnation security
commensurate with the risk and magnitude of the hann resulting from unauthorized
access, use, disclosure, disruption, modification, or destruction of infonnation collected
or maintained by or on behalf of the agency; and infonnation systems used or operated by
an agency or by a contractor of an agency or other organization on behalf of an agency;
and (b) ensure senior agency officials provide infonnation security for the infonnation
and infonnation systems supporting the operations and assets under their control.
Furthennore, FISMA requires the Office of Inspector General (OIG) to annually evaluate
the agency's infonnation security program and report to OMB.

As part of the annual FISMA review we conducted an audit this year instead oian
evaluation. We assessed the adequacy of controls over infonnation security and
compliance with infonnation security policies, procedures, standards, and guidelines.
Specifically, we detennined the effectiveness of the NARA infonnation security program
by testing the infonnation security policies, procedures, and practices over a
representative sample of the agency's systems.

Some of the weaknesses we identified in our audit have been identified in previous
FISMA evaluations and in Audit Report 06-09 "Review ofNARA's Infonnation Security
Program," July 31, 2006. We continued to find significant weaknesses that can be
attributed to deficiencies in the design and operation of internal controls within the Office
ofInfonnation Services (NH). Due to the significance of these weaknesses NARA
cannot be assured its systems and data are adequately secured. As a result, infonnation
technology (IT) security is a material weakness within NARA.

Specific weaknesses identified this year include:

   a) 	 Incident detection, reporting, and response capabilities at NARA were not
        adequate to ensure incidents were detected quickly, fully investigated and
        resolved, and reported to appropriate officials, ifneeded. In addition, NH
        officials did not follow documented procedures and did not test their incident
        handling and response procedures during the year. Without adequate incident
        handling capabilities, NARA cannot rapidly detect computer-security related
        incidents, minimize loss and destruction, mitigate exploited weaknesses, and
        quickly restore computing services.

   b) 	 IT systems were not appropriately certified and accredited for operation. 

        Specifically, NH officials did not properly complete many of the detailed 

        activities required for certification and accreditation. Without a proper 


                                             Page 1
                          National Archives and Records Administration
                                                                                 OIG Audit Report No. 08-05


         certification and accreditation (C&A) of systems, NARA lacks assurance that its
         systems and data are secure. In addition, certifying and accrediting officials may
         not have had sufficient information to make timely, credible, risk-based decisions
         on whether to authorize operation of those systems.

    c) 	 Ofthe 12 systems reviewed, 7 systems were identified as critical to NARA's
         mission. However, a recovery strategy was not defined in the contingency plans
         for these systems. Without a recovery strategy for its mission critical systems,
         NARA does not have assurance critical systems can be recovered within
         necessary time periods.

    d) 	 Standardized test procedures were used to test aspects of the contingency plans,
         however, the tests did not actually test the feasibility of the plan or determine
         whether effective communication would occur between contingency plan
         participants. By not testing the contingency plans, NARA does not have
         assurance the plans can be implemented quickly and effectively in the event of a
         disaster.

    e) 	 NH officials did not establish a formal process to manage, prioritize, and track IT
         security weaknesses identified in the NARA Information Security Program.
         Specifically, the program-level plan of action and milestones l (POA&M) did not
         include all IT security weaknesses and vulnerabilities known to management.
         Without a complete POA&M, the ChiefInformation Officer (CIO) may not have
         proper visibility of IT security weaknesses and can not use the POA&M as an
         effective management tool to request and allocate resources for correcting IT
         security weaknesses.

    f) 	 Only 35 of the 67 (52%) individuals with significant security responsibilities
         completed the additional level of security awareness training and IT contractors
         were not required to complete the additional training even though they have
         significant security responsibilities over NARA IT assets and are IT security
         professionals. The NARA Managers and Information System Security Officer
         training course was intended for those individuals whose jobs involve significant
         security responsibilities associated with the management or technical oversight of
         NARA IT systems. The purpose of the course was to provide current information
         about changes in IT security doctrine and reference policy and guidance affecting
         IT security programs. Failure to ensure employees receive training at a level
         associated with their responsibilities at NARA increases the risk of security
         breaches resulting from employees who are not fully aware of their security roles
         and responsibilities.




1 A plan of action and milestones, also referred to as a corrective action plan, is a tool identifying tasks that
need to be accomplished. It details resources required to accomplish the elements of the plan, any
milestones in meeting the task, and scheduled completion dates for the milestones. The purpose of the
POA&M is to assist agencies in identifying, prioritizing, and monitoring the progress of corrective efforts
for security weaknesses found in programs and systems.

                                                   Page 2
                                National Archives and Records Administration
                                                                              OIG Audit Report No. 08-05


    g) 	 Privacy Impact Assessments2 (PIAs) did not contain all the information required
         by OMB 03-22 OMB Guidance for Implementing the Privacy Provisions ofthe E­
         Government Act of2002, September 30, 2003. Information omitted related to
         how the personally identifiable information in the system would be secured and
         what choices were made as a result of performing the PIA. Without this
         information the public, whose information may be stored in the system, does not
         have assurance their information is being properly protected.

In addition, an internal program review 3 funded by NH during FY 2007 determined that
NARA's information security policies lacked clearly defined responsibilities and actions
and did not have a mechanism in place to monitor the policies and procedures.
Strengthening management controls over the information security program by revising
policy and procedures and then enforcing compliance with the procedures will help to
ensure control weaknesses are corrected and NARA complies with applicable laws and
regulations in the future.

We made 21 recommendations that, when implemented, will assist the agency in
establishing an information security program meeting FISMA and NIST requirements.




2 A privacy impact assessment is a process for examining the risks and ramifications of using IT to collect, 

maintain, and disseminate information in identifiable form from or about members of the public, and for 

identifying and evaluating protections and alternative processes to mitigate the impact to privacy of 

collecting such information. 

3 The Program Review for Information Security Management Assistance Report, October 30, 2007. 



                                                  Page 3
                               National Archives and Records Administration
                                                                    OIG Audit Report No. 08-05



                                   INTRODUCTION

BACKGROUND

FISMA directs each Federal agency to develop, document and implement an agency­
wide information security program to protect the information and information systems
supporting the operations and assets of the agency. According to FISMA, the head of
each agency is responsible for providing information security protections commensurate
with the risk and magnitude of the harm resulting from unauthorized access, use,
disclosure, disruption, modification, or destruction of information collected or maintained
by or on behalf of the agency; and information systems used or operated by an agency or
by a contractor of an agency or other organization on behalf of an agency. In addition,
the head of each agency is responsible for ensuring senior agency officials provide
information security for the information and information systems supporting the
operations and assets under their control.

FISMA directs the head of each agency to delegate to the agency CIO the authority to
ensure compliance with FISMA requirements including: (a) developing and maintaining
an agency-wide information security program; (b) developing and maintaining
information security policies, procedures, and control techniques to address all applicable
requirements; (c) training and overseeing personnel with significant responsibilities for
information security; and (d) assisting senior agency officials concerning their
responsibility to provide information security.

NARA Directive 101, Part 3 "Office oflnformation Services," September 30, 2007,
appoints the Assistant Archivist of Information Services as the NARA Chieflnformation
Officer (CIO). The CIO is responsible for leading the NARA-wide information
technology (IT) program to carry out the provisions ofthe Information Technology
Management Reform Act of 1996 and the E-Government Act of2002. The CIO also
ensures the NARA IT program conforms to all NARA and Federal standards, policies,
and guidelines for interconnectivity and interoperability, computer system efficiency, and
computer security.

In accordance with Office of Management and Budget (OMB) Circular A-130,
Appendix III, Security ofFederal Automated Information Resources, agencies are
required to establish controls to assure adequate security for all information processed,
transmitted, or stored in Federal automated information systems. "Adequate security"
means security commensurate with the risk and magnitUde of the harm resulting from the
loss, misuse, or unauthorized access to, or modification of, information. This includes
assuring that systems and applications used by the agency operate effectively and provide
appropriate confidentiality, integrity, and availability, through the use of cost-effective
management, personnel, operational, and technical controls.




                                            Page 4
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 08-0S


OBJECTIVES, SCOPE, AND METHODOLOGY

The overall objective of the audit was to assess the adequacy of controls over information
security and compliance with information security policies, procedures, standards, and
guidelines. Specifically, we determined the effectiveness of the NARA information
security program by testing the information security policies, procedures, and practices
over a representative sample of the agency's systems.

The audit was conducted at Archives II in College Park, MD with the Office of
Information Services (NH) and the Office of General Counsel (NGC).

To accomplish our objective, we reviewed Public Law 107-347, the Federal Information
Security Management Act of 2002, OMB Circular A-130, NIST standards and guidance
as well as OMB policy memoranda. We interviewed NH and NGC officials and
reviewed documentation provided by those offices to determine whether NARA has
adequate controls to ensure compliance with FISMA and other Federal policy
requirements. Specifically, we obtained an inventory of information systems from the
CIO and selected a representative judgmental sample to review. For the 12 systems
selected as part of the sample, we obtained and reviewed: certification and accreditation
documents; contingency plans; documentation of tests of security controls performed;
risk and/or threat assessments; system security plans, Plan of Action and Milestones; and
any additional documentation needed to answer the audit objective. In addition, we
obtained and reviewed the privacy impact assessments to determine whether all
information required by OMB 03-22 was included.
This performance audit was conducted in accordance with generally accepted
government auditing standards (GAGAS) between June 2007 and January 2008. These
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                            Page 5
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 08-05



          COMPUTER SECURITY INCIDENT RESPONSE CAPABILITY 


FISMA requires each agency to implement an information security program that includes
procedures for detecting, reporting, and responding to security incidents. Security
incidents4 , whether caused by viruses, hackers, or software bugs, are becoming more
common. When faced with a security incident, an agency should be able to respond in a
manner that both protects its own information and helps to protect the information of
others that might be affected by the incident. To address this concern, agencies should
establish formal incident response mechanisms.

According to NIST SP 800-61 Computer Security Incident Handling Guide, January
2004, computer security incident response has become an important component of
information technology (IT) programs. Security-related threats are not only more
numerous and diverse but also more damaging and disruptive. New types of security­
related incidents emerge frequently. Preventative activities can lower the number of
incidents, but not all incidents can be prevented. An incident response capability is
therefore necessary for rapidly detecting incidents, minimizing loss and destruction,
mitigating exploited weaknesses, and restoring computing services. '

NH established a computer security incident handling and response capability, the stated
purpose of which was to ensure computer security incidents are identified, reported, and
corrected as effectively and quickly as possible. This process, as described in NARA's
Computer Security Incident Handling Guide, is designed to detect and respond to
computer security incidents as they occur, to assist in preventing future incidents from
occurring, to develop necessary response mechanisms to deal with incidents, to support
IT security controls, and to implement appropriate response procedures. The guide
provides guidelines for incident handling, particularly for analyzing incident-related data
and determining the appropriate response to each incident.

NARA's incident handling and response capability is outsourced to two different
contractor groups. Contractors for NHI (Security) are responsible for monitoring the
intrusion detection system5 (IDS) and creating trouble tickets for events identified by the
IDS. Separate NHT (Operations) contractors are responsible for responding to the
trouble tickets and investigating security events. A government employee was designated
as the NARA Computer Incident Response Team (CIRT) Team Lead and directed the
operations of the two contractor groups. The Team Lead was also responsible for the
actual conduct of the incident response process and reporting incidents to the US
Computer Emergency Readiness Team (US CERT)6.


4 According to NIST SP 800-61, a computer security incident is a violation or imminent threat of violation
of computer security policies, acceptable use policies, or standard computer security practices.
5 An intrusion detection system is software that looks for suspicious activity and alerts administrators.
6 US CERT is a partnership between the Department of Homeland Security and the public and private
sectors. Established in 2003 to protect the nation's internet infrastructure, US CERT coordinates defense
against and responses to cyber attacks across the nation. The organization interacts with federal agencies,
state and local governments, industry professionals, and others to improve information sharing and incident
response coordination and to reduce cyber threats and vulnerabilities.

                                                 Page 6
                              National Archives and Records Administration
                                                                           OIG Audit Report No. 08-05


Continuous Monitoring of the IDS did not Exist

Continuous monitoring of the IDS did not exist during the workday to rapidly detect and
respond to incidents. NH officials accepted the risk presented by a lack of 24 hourn day
incident response however, NH officials were not aware the IDS was not continuously .
monitored during the workday. According to NIST SP 800-61, the longer an incident
remains undetected, the greater the potential for damage and loss. Without continuous
monitoring of the IDS, the response team would not be notified to begin their
investigation until hours or in the case of weekends, days, after an event had occurred.

Although the CIRT Team Lead believed the IDS was continuously monitored during the
workday, the IDS analyst ran only one report per day at 9:00 am compiling all the events
detected from the previous 24 hours. In one example,the NARA Intrusion Detection
Report for October 31, 2007, found five incidents ofpotentially malicious activity. Two
of the incidents occurred the previous day, October 30, 2007, at 11 :34 am however,
because the events occurred after 9:00 am on October 30th , these events were not reported
or investigated until 24 hours later.

According to NIST SP 800-61, larger organizations as well as smaller ones supporting
critical infrastructures, usually need incident response staff to be available 2417. This
typically means incident handlers can be contacted by phone or pager, but it can also
mean an onsite presence is required at all times. Real-time availability is the best for
incident response because the longer an incident lasts, the more potential there is for
damage and loss.

NH officials stated continuous monitoring of the IDS was in place --------------redacted,
b(2)---------------------- and the Help Desk was staffed --------------redacted, b(2)-----------.
Therefore, they believed the maximum amount of time an attack would go unnoticed was
8 hours. ----------------------------------------redacted, b(2)---------------------------------------­
----------------------------------------------------------------------------. According to an NH
official, the risk presented by the lack of 24 hourl7 day incident response was an accepted
risk because NH does not have funding to support 24 hourn day incident response. The
CIO added she would like to improve security but is constrained by the budget.

As a result of the audit, NH officials took action and directed the contractor to begin
submitting multiple IDS reports per day. Starting in November 2007, the IDS analyst
began monitoring the IDS during the day and issuing --------------------redacted, b(2)-----­
--------------- to alert the CIRT team of new incidents discovered during the day. The IDS
reports --------------redacted, b(2)-------------------------------. ----------------------------------­
--------------------------redacted, b(2)----------------------------------------------------------------­



Recommendation 1. The Assistant Archivist for Information Services should add the
lack of 24 hourn day incident response to the program-level plan of action and
milestones and assess whether the risks presented require a reallocation of the IS security
budget.


                                                Page 7
                             National Archives and Records Administration
                                                                     OIG Audit Report No. 08-05


Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




Security Events Were Not Always Fully Investigated

In reviewing security trouble tickets for events occurring between October 1, 2006 and
November 1, 2007, we found several instances where security events identified by the
IDS analyst were not fully investigated to determine whether an incident occurred. This
occurred because NH officials did not monitor the contractor teams to ensure all events
were investigated. In addition, NH officials did not ensure the two contractor teams were
communicating effectively. According to NIST SP 800-61, it is imperative that the most
suspicious activity is investigated. NIST SP 800-61 further states strong teamwork and
communication are vital to effective incident handling. By not investigating events
identified, NARA is unsure whether attacks were successful and if so, the extent oftheir
harm.

For example, the following three events were not investigated to determine whether an
incident occurred:

   (1) On June 8, 2007, the NARA Intrusion Detection Report contained a high alert
   that a NARA system had accessed a potentially malicious website and should be
   investigated to determine whether the system was compromised. Based on the
   information provided by the IDS analyst, the NHT contractor was unable to
   determine which NARA workstation was involved. The NHT contractor attempted to
   follow-up with the IDS analyst to obtain additional information on the system
   involved, however, further information was not provided. The NHT contractor
   concluded that with the limited information, he was unable to investigate the issue
   further and closed the ticket on June 8, 2007.

   (2) On June 29, 2007, another high alert was reported in the NARA Intrusion
   Detection Report. In this example, the NHT contractor was not able to investigate the
   issue based on the information provided. According to the trouble ticket work log,
   the NHT contractor spoke with the IDS analyst regarding the hick of information and
   the IDS analyst agreed to do further research using the firewall log in order to track
   down the actual system involved. However, the NHT contractor closed the ticket on
   June 29, 2007, before further information could be obtained.

    (3) On August 17,2007, the IDS identified an event classified as most likely
    malicious in nature. The NHT contractor responding to the ticket stated there were
    over 40 unique external IP addresses involved and asked for clarification. The NHT
    contractor assigned the trouble ticket back to the IDS analyst and requested additional
    information. As of November 28,2007 this ticket status is "Work in Progress"
    meaning it has not been resolved or investigated.


                                             Page 8
                          National Archives and Records Administration
                                                                        OIG Audit Report No. 08-05


NH officials, including the CIRT Team Lead, did not monitor the two contractor teams to
ensure events were adequately investigated. Although the lack of information was
communicated in the work log for the trouble tickets, NH officials did not request
additional action be taken to investigate the event before closing the trouble ticket. In
addition, NH officials did not facilitate interaction among the two contractor teams to try
and obtain the information needed. According to the NARA incident handling
procedures, the Information Security Officer is responsible for monitoring the resolution
of all incidents, however, there was no evidence any monitoring took place.

In addition, NH officials did not ensure the two contractor teams were communicating
effectively in the incident handling process. During the audit, we noted uncertainty by
both contractor teams as to whether the other had the knowledge and skills necessary to
perform the job correctly. According to NIST SP 800-61, teamwork and communication
are needed for effective incident handling therefore, doubt could adversely affect the
ability to work together as a team. The CIRT Team Lead needs to have an active role in
fostering teamwork among the two contractor teams.

Recommendation 2. The Assistant Archivist for Information Services should establish a
process to review the Remedy trouble ticket work logs daily and communicate with the
CIRT team, if needed, to ensure all events are fully investigated.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




Incident Response Procedures were not Tested

NH officials did not perform testing to ensure the CIRT would function in the most
efficient and effective manner possible. This occurred because NH officials believed
responding to real incidents in lieu of a test satisfied the requirement. NIST SP 800-61
recommends testing the incident response procedures so the incident response team can
practice responding to large-scale incidents. By not testing the incident handling
procedures, NARA lacks assurance the incident handling capability is adequate to protect
NARA's computer network and information systems against computer security-related
incidents.

According to NIST SP 800-61, organizations typically find it very challenging to
maintain situational awareness for the handling oflarge-scale incidents because of their
complexity. Collecting, organizing, and analyzing all the pieces of information, so the
right decisions can be made and executed, are not easy tasks. The key to maintaining
situational awareness is preparing to handle large-scale incidents, which should include
practicing the handling of large-scale incidents through exercises and simulations on a
regular basis. Such incidents happen rarely, so incident response teams often lack
experience in handling them effectively.


                                            Page 9
                         National Archives and Records Administration
                                                                          OIG Audit Report No. 08-05


The CIRT Team Lead stated responding to real incidents in lieu of a test satisfied the
NIST requirement. However, the CIRT Team was not convened in response to any
incidents during the year. Therefore, NARA has no assurance the team will function in
the most efficient and effective manner possible to protect NARA's computer network
and information systems against computer related incidents. Any problems associated
with NARA's incident response capability need to be detected and corrected before a
real, large-scale incident occurs.

Recommendation 3. The Assistant Archivist for Information Services should conduct
testing of the incident response procedures involving both small and large scale security
incident exercises and simulations to ensure the CIRT team functions efficiently and
effectively and any problems can be identified.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




Reporting of Computer Security Incidents was not Adequate

NH officials did not report all security incidents that occurred between October 1, 2006
and August 31, 2007, to US CERT as required. This occurred because NH officials
relied on the contractor to alert them of security incidents and did not conduct reviews of
the security trouble tickets opened. In addition, NH officials did not believe NARA had
to follow the written procedures issued by US CERT. FISMA requires Federal agencies
to report IT security incidents to the Federal Information Security Incident Center7 , a
government-wide incident response capability assisting Federal civilian agencies in their
incident handling efforts, within the Department of Homeland Security. As a result,
NARA is not in compliance with Federal law.

We identified nine computer security incidents that were not reported to US CERT.
Further, of the 15 incidents that were reported, only 4 (27%) were reported within the
required timeframe.

    a. At least nine incidents occurred during the year but were not reported to US
CERT, as required. These incidents included one RootlUser Level intrusion, two
instances where malicious software was installed on NARA systems, five instances of
improper usage involving the violation of acceptable computer use policies, and one
incident of an attempted access.

NH officials relied on the contractors to alert them of important incidents and did not
conduct reviews of the security trouble tickets opened. According to the CIRT Team
Lead, his review of the security trouble tickets was limited to only those incidents

7 The Federal Information Security Incident Center is now referred to as the US Computer Emergency
Readiness Team (US CERT).

                                                Page 10
                             National Archives and Records Administration
                                                                         OIG Audit Report No. 08-05


included in the daily Intrusion Detection Reports. However, by only reviewing tickets
opened as a result of the IDS report, the CIRT Team Lead did not have visibility over
incidents reported by the Field Operations System Administrators (FOSA) or incidents
reported directly to the Help Desk by NARA users.

In one example, a FOSA identified a worm 8 that had copied itselfto the local hard drive
of a system and mapped itself to the network drive. The security trouble ticket was
created April 13, 2007, and based on the type of incident, should have been reported to
US CERT within one day. However, the CIRT Team Lead was not aware the trouble
ticket had been created, or that a worm had been discovered at one ofNARA's field sites
until we identified the ticket during our audit. The CIRT Team Lead stated the FOSA
should have alerted him regarding the discovery. However, according to the CIRT Team
Lead, neither the FOSA nor the security contractor involved in investigating the incident
notified him.

   b. Between October 1,2006, and September 4,2007, NARA reported 15 computer
security incidents to US CERT. In reviewing the 15 incidents reported, only 4 incidents
were reported within the required timeframe because NH officials did not believe NARA
had to follow the written procedures issued by US CERT. NH officials waited until
August 27,2007, or later, to report 10 of the incidents (See Table 1).

               Table 1. Review of Security Incidents Reported to US CERT

                                                                   Timeframe          Submitted
        Incident Category            Date        Date Reported
                                                                   Required by          Within
        Reported by NARA           Identified     to US CERT
                                                                    US CERT          Timeframe?

    1. CAT3 Malicious Logic        9/28/2006       11/7/2006           Daily              NO

    2. CAT4 Improper Usage        11/16/2006       12/7/2006          Weekly              NO

    3. CAT6 Investigation          unknown         3/20/2007            N/A              YES

    4. CAT5 Attempted Access       4/30/2007       8/27/2007          Monthly             NO

    5. CAT5 Attempted Access       5/16/2007       5/18/2007          Monthly            YES

    6. CAT4 Improper Usage         5/17/2007       8/27/2007          Weekly              NO

    7. CAT4 Improper Usage         5/22/2007       8/27/2007          Weekly              NO

    8. CAT3 Malicious Logic         6/7/2007        6/7/2007           Daily             YES

    9. CAT3 Malicious Logic         6/8/2007       8/27/2007           Daily              NO




8A worm is a destructive program that may destroy data or use up tremendous computer or
communications resources. Worms do not replicate like viruses. Instead, worms can run independently
and travel from machine to machine across network connections by exploiting vulnerabilities and
application or system weaknesses.

                                                Page 11
                              National Archives and Records Administration
                                                                        OIG Audit Report No. 08-0S



                                                               Timeframe           Submitted
     Incident Category          Date        Date Reported
                                                               Required by           Within
     Reported by NARA         Identified     to US CERT
                                                                USCERT            Timeframe?

 10. CAT5 Attempted
                              6/12/2007       8/27/2007          Monthly              NO
 Access

 11. CAT5 Attempted
                              6/28/2007       8/27/2007          Monthly              NO
 Access

 12. CAT5 Attempted
                              6/29/2007       8/27/2007          Monthly              NO
 Access

 13. CAT5 Attempted
                              7/18/2007       8/27/2007          Monthly              NO
 Access

 14. CAT5 Attempted
                              7/20/2007       8/28/2007          Monthly              NO
 Access

 15. CAT5 Attempted
                              7/31/2007       8/27/2007          Monthly              YES
 Access


According to NH officials, NARA's reporting processes and procedures were based off
of verbal conversations with an individual at US CERT. One NH official stated actual
incidents that US CERT would need to know about in a timely fashion would be reported
according to the established timeframes, but because NARA's incidents were all resolved
internally, NARA only had to report them by the end of year. This contradicts the written
procedures published by US CERT. US CERT issued written procedures regarding the
types of incidents that should be reported and established timeframes for reporting
incidents, however, the NH official believed the verbal direction outweighed the written
instructi ons.

Recommendation 4. The Assistant Archivist for Information Services should establish a
process to review all Remedy security trouble tickets opened and revise the incident
handling and Intrusion Detection System procedures to include the requirement that the
CIRT Team Lead be notified if a high level incident is identified.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




Preventative Control Was Not Implemented

A preventative control identified by NH officials in their FISMA response to OMB was
not actually in place. This occurred because NH officials did not monitor the contractor
to ensure the contractor performed the specified activities. NIST SP 800-61 states
preventative activities, such as ensuring systems, networks, and applications are

                                           Page 12
                         National Archives and Records Administration
                                                                           OIG Audit Report No. 08-05


sufficiently secure, can lower the number of incidents. In addition, the NARA Computer
Security Incident Handling Guide states preventing problems is normally less costly and
more effective than reacting to them after they occur. By not ensuring preventative
controls are in place, NARA may not be able to identify and fix system vulnerabilities
before an attacker exploits the vulnerability.

Specifically, NH reported that as part oftheir testing and continuous monitoring process
at least two production servers per week were audited, to include checks of the security
configurations ofthose servers. However, when we requested the supporting
documentation resulting from those audits, NH officials discovered the contractor did not
perform the audits as required. Although the contractor had completed some audits, the
audits were not conducted bi-weekly or on a regular basis. According to the
documentation provided by NH, approximately 39 server audits were completed between
June 2006 and June 2007 instead of the 104 audits which should have been completed.

In addition, NH officials did not monitor the contractor to ensure recommendations
resulting from the audits were mitigated. For example:

  (a) An audit conducted on an ARC server in June 2006 found -----------------------------­
-------------------------redacted, b(2)-----------------------------------------------------------------­




  (b) An audit conducted on a MILRECS server on August 1, 2006, found ----------------­

-------------------------------redacted, b(2)-----------------------------------------------------------­




  (c) An audit conducted on a CMRS server on July 18, 2006, found -----------------------­

-------------------------redacted, b(2)-----------------------------------------------------------------­



As of October 2007, the status of all three Change Request Tickets was "Work In
Process" indicating these weaknesses have not been corrected.

NH officials did not adequately monitor the contractor to ensure the bi-weekly server
audits were conducted and vulnerabilities identified were corrected. Specifically, the NH
official assigned to monitor the contractor's performance was not aware of the
requirement for the contractor to perform bi-weekly server audits and did not believe it
was his responsibility to monitor that task because it related more to security than
operations.



                                                Page 13
                              National Archives and Records Administration
                                                                     OIG Audit Report No. 08-05


Recommendation 5. The Assistant Archivist for Infonnation Services should designate
an NH employee to receive the bi-weekly server audit results and to review the results to
ensure procedures are followed and security vulnerabilities are mitigated in a timely
manner.

Management Comment(s)

The Assistant Archivist for Infonnation Services concurred with the recommendation.

Recommendation 6. The Assistant Archivist for Infonnation Services should conduct a
review of open Remedy tickets and direct the contractor, in writing, to address the
vulnerabilities identified during the completed server audits.

Management Comment(s)

The Assistant Archivist for Infonnation Services concurred with the recommendation.

Recommendation 7. The Assistant Archivist for Infonnation Services should add
security vulnerabilities identified during the server audits to the system's plan of action
and milestones to ensure proper tracking and visibility.

Management Comment(s)

The Assistant Archivist for Infonnation Services concurred with the recommendations.




Post-Incident Activities Were Not Conducted

NH officials did not conduct post-incident activities in accordance with NIST and NARA
guidance. Specifically, post-incident activities did not include holding "lessons learned"
meetings. This occurred because an NH official deleted this requirement from the
incident handling procedures. NIST SP 800-61 recommends the use of lessons learned
meetings to evaluate the incident handling process and identify necessary improvements
to security controls and practices. By not conducting post-incident activities, NARA is
missing a valuable opportunity to improve the incident handling process by identifying
security weaknesses and deficiencies in the policies and procedures.

According to NIST SP 800-61, organizations should use the lessons learned process to
gain value from incidents. After a major incident has been handled, the organization
should hold a lessons learned meeting to review how effective the incident handling
process was, and identify necessary improvements to existing security controls and
practices. Lessons learned meetings should also be held periodically for lesser incidents.
The infonnation accumulated from all lessons learned meetings should be used to
identify systemic security weaknesses and deficiencies in policies and procedures.
Follow-up reports generated for each resolved incident can be important not only for



                                            Page 14
                          National Archives and Records Administration
                                                                     OIG Audit Report No. 08-0S


evidentiary purposes, but also for reference in handling future incidents and in training
new incident response team members.

We previously reported this finding in OIG Audit Report 06-09 "Review ofNARA's
Information Security Program," July 31, 2006. In that report, we recommended the
Assistant Archivist for Information Services should require NARA IT security personnel
to conduct post-incident activities in accordance with the guidance in NIST SP 800-61
and the NARA Computer Security Incident Handling Guide, including (1) holding
"lessons learned" meetings when a major incident occurs and periodically for lesser
incidents, and (2) preparing "follow-up" incident reports. Management concurred with
the recommendation and agreed to take corrective action. However, the recommendation
was not implemented. Instead, one NH official made revisions to the NARA Computer
Security Incident Handling Guide to remove the requirement for lessons learned
meetings.

A previous version of the NARA Computer Security Incident Handling Guide required
post incident activities be conducted after an incident was mitigated to determine how
effective the incident handling process was and to identify necessary improvements to
security measures and the incident response process. An NH official, who was
responsible for the actual conduct of the incident response process, made revisions to the
Computer Security Incident Handling and Response Guide. According to the Revision
History Table, the changes made included updating the contact lists, adding the system
information system security officer contact list, changing references from FedCIRC to
US-CERT and other editorial changes. However, we identified additional changes not
recorded in the revision table. One revision made was to delete the requirement for
lessons learned meetings. According to the NH official, he revised the incident handling
guide to remove requirements NH was not following such as the post incident activities.
Allowing an NH employee to revise the procedures in order to remove requirements not
being followed circumvents management controls and indicates additional controls are
needed in order to ensure compliance.

Recommendation 8. The Assistant Archivist of Information Services should conduct
"lessons learned" meetings in accordance with the guidance in NIST SP 800-61 when a
major incident occurs and periodically for lesser incidents, and develop and implement a
control mechanism to verify compliance.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.

Recommendation 9. The Assistant Archivist oflnformation Services should revise the
NARA Computer Security Incident Handling Guide to include the requirement for IT
security personnel to conduct post-incident activities outlined in NIST SP 800-61.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.


                                             Page 15
                          National Archives and Records Administration
                                                                        DIG Audit Report No. 08-05


Pertinent Information Missing from NARA Intrusion Detection Reports

IDS reports issued by the IDS analyst to the incident response team did not identify the
date and time the event occurred. However, during a previous review ofNARA's
information security program, this information had been included on the IDS reports.
The changes to the IDS report occurred because contractor staff changed during the year
and the IDS Procedures did not require this information be included. Without the date
and time the event occurred, reviews of security logs for details ofthe event would be
extremely difficult if not impossible.

The date and time an event occurred is critical when determining which logs should be
reviewed for details ofthe event. For example, the IDS Report dated Monday, April 9,
2007, contained two high alert events. The IDS Report did not identify which date and at
what times the events occurred, making the review of logs for details of the events
extremely difficult, ifnot impossible.

NH officials were not aware the date and time information had been removed from the
IDS reports and took immediate action to begin including this information on future
reports.

Recommendation 10. The Assistant Archivist of Information Services should revise the
Intrusion Detection System procedures to add a requirement for the date and time of the
event to be included in the daily Intrusion Detection Reports.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




                                            Page 16
                         National Archives and Records Administration
                                                                     OIG Audit Report No. 08-05



           NARA CERTIFICATION AND ACCREDITATION PROCESS

Security certification and accreditation (C&A) are important activities that support a risk
management process and are an integral part of an agency's information security
program. According to NIST SP 800-37, Guide for the Security Certification and
Accreditation ofFederal Information Systems, May 2004, security accreditation is the
official management decision given by a senior agency official to authorize operation of
an information system and to explicitly accept the risk to agency operations, agency
assets, or individuals based on the implementation of the agreed-upon set of security
controls. NIST SP 800-37 further states it is essential for agency officials to have the
most complete, accurate and trustworthy information possible on the security status of
their information systems in order to make timely, credible, risk-based decisions on
whether to authorize operation of those systems. Although NIST SP 800-37 is a
guidance document, OMB has mandated the use ofNIST SP 800-37 for system
certification and accreditation activities.

Our review of the C&A process disclosed systems were not appropriately re-certified and
accredited for operation. Specifically, NH officials did not complete many of the detailed
activities required by NIST SP 800-37. Without a proper C&A of systems, NARA lacks
assurance its information systems and the data they contain are secure. See Appendix A
for detailed information regarding our review of systems in the sample.

The NARA IT Security C&A Methodology, version 4.6.1, September 14, 2007, states the
assessment of risk and the development of System Security Plans are two important
activities in an agency's information security program directly supporting C&A and are
required by FISMA and OMB Circular A-130, Appendix III.

System Security Plans provide an overview of the information security requirements and
describe the security controls that are either in place or planned to meet those
requirements. The system security plan also delineates responsibilities and expected
behavior of all individuals who access the system. The security plan should be viewed as
documentation of the structured process of planning adequate, cost-effective security
protection for a system. It should reflect input from various managers with
responsibilities concerning the system, including information owners, the system owner,
and the senior agency information security officer. Security plans are living documents
requiring periodic reviews, modifications, and milestone or completion dates for planned
controls. Procedures should be in place outlining who reviews the plans and follows up
on planned controls.

The plan of action and milestones (POA&M) document is a key document in the security
accreditation package and identifies: (a) tasks needing to be accomplished; (b) resources
required to accomplish elements of the plan; (c) milestones in meeting the tasks; and (d)
scheduled completion dates for the milestones. The POA&M describes the measures that
have been implemented or planned to correct any deficiencies noted during the
assessment of the security controls, and to reduce or eliminate known vulnerabilities in
the information security.


                                             Page 17
                          National Archives and Records Administration
                                                                               OIG Audit Report No. 08-05


After a system has undergone certification and received approval to operate from the
authorizing official, the system enters a "continuous monitoring" phase. "Continuous
monitoring" provides oversight and monitoring of the security controls in the information
system on an ongoing basis and informs the authorizing official when changes occur that
may impact the security of the system. OMB Circular A-130, Appendix III requires use
of the system or application be re-authorized (re-certified and accredited) every three
years or whenever a significant change is made.

System Categorizations were not Properly Assigned

Overall, five systems did not have a system categorization9 matching the availability or
confidentiality requirements needed for the systems. This occurred because NH officials
were not aware IT systems were mentioned in the NARA Continuity of Operations Plan
(COOP) and an NH official believed the confidentiality categorizations were appropriate
based on his knowledge of the systems. Federal Information Processing Standards
Publication (FIPS) 199 requires agencies to categorize all information and information
systems based upon the need to provide appropriate levels of information security
according to a range of risk levels. As a result of not having the appropriate
categorization level, information in the systems may not be adequately protected.

Specifically, three systems were identified in the NARA COOP as critical to supporting
NARA's mission, but had an availability rating of Low. Further, three systems identified
as containing Personally Identifiable Information (PU) had a confidentiality rating of
Low.

  a. Three systems mentioned in the NARA COOP had an availability rating of Low: ---­
-----------------------------------redacted, b(2 )-------------------------------------------------------­
--------------------------------------------------------------------------------------. An availability
classification of Low means the disruption of access to or use of information or an
information system could be expected to have a limited adverse effect on organizational
operations, organizational assets, or individuals. However, because these systems are
designated as essential in the NARA COOP, a disruption of access to use of the
information would cause more than limited adverse effects on the organizational
operation~. Further, one of those three systems,---b(2)---- had an overall FIPS 199 rating
of "Low." The overall FIPS 199 rating determines the number of recommended
minimum security controls for information systems. A "Low-impact" system requires
fewer minimum security controls therefore, --redacted, b(2)------ may have less controls
in place than the system warrants.

  b. Three systems identified as containing Personally Identifiable Information had a
confidentiality rating of Low: --------------redacted, b(2)------------------------------- -------­

9 NIST Federal Information Processing Standard (FIPS) 199 "Standards for Security Categorization of
Federal Information and Information Systems," February 2004, established security categories for
information and information systems. The categorization is based on the potential impact on an
organization should certain events occur which jeopardize the information and information systems needed
by the organization to accomplish its assigned mission, protect its assets, fulfill its legal responsibilities,
maintain its day-to-day functions, and protect individuals.

                                                  Page 18
                               National Archives and Records Administration
                                                                      OIG Audit Report No. 08-05


-----------------------redacted, b(2)-------------------------------. According to FISMA,
confidentiality relates to preserving authorized restrictions on access and disclosure,
including means for protecting personal privacy and proprietary information. A loss of
confidentiality is the unauthorized disclosure of information. Because the systems
contain PH, the confidentiality level should be at least moderate.

According to NH officials, the security categorizations for systems were decided by the
system owners with assistance from NH however, NH officials were not aware the
NARA COOP included individual systems because NH officials had not seen the latest
version of the COOP. In addition, an NH official stated two of the systems identified as
containing PH did not, to his knowledge, contain PH therefore, he believed the
confidentiality categorization was appropriate.

Appropriate system categorizations are important because the categorization level
determines the number of baseline security controls required for the system. Therefore,
by not having correct system categorizations, a system may have too many controls
which would not be cost effective or, if a system was rated lower than it should be,
information may not be adequately protected. NARA system owners and NH officials
should review the system categorizations for these five systems to determine whether the
categorization level is appropriate based on mission need and sensitivity of the data.

Recommendation 11. The Assistant Archivist ofInformation Services, along with the
system owners, should:

        a. Re-evaluate the availability requirements for --------------redacted, b(2)---------­

-----------------, and

        b. Re-evaluate the confidentiality requirements for --------------redacted, b(2)-----­



Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




System Security Plans and System Plans of Action and Milestones were not
Complete

Of the 12 systems reviewed, 11 systems did not have a completed security plan, and the
plan of action and milestones (POA&M) for 8 systems did not contain all the information
required by OMB. This occurred because the CIO did not implement management
controls to verify certification and accreditation activities were completed before
authorizing systems to operate. FISMA Section 3544(B) requires that agencies maintain
subordinate plans for providing adequate information security for networks, facilities,

                                              Page 19
                           National Archives and Records Administration
                                                                                OIG Audit Report No. 08-05


infonnation systems, or groups of infonnation systems; as well as a process for planning,
implementing, evaluating, and documenting remedial action to address any deficiencies
in infonnation security. As a result, NARA lacks assurance its systems and data are
secure. In addition, the CIO and ChiefInfonnation Security Officer (CISO) may not
have had sufficient infonnation to make timely, credible, risk-based decisions on whether
to authorize operation of those systems.

  a. Eleven ofthe 12 systems did not have completed security plans. Generally, the
systems had a portion of the infonnation required by NIST but not all. Specifically:

    (1) Ten of the 12 plans reviewed did not contain security controls tied to NIST
SP 800-53 or did not describe the controls in place or planned for meeting security
requirements. Federal agencies must meet the minimum security requirements defined in
FIPS 200 through the use of the security controls in NIST SP 800-53, Recommended
Security Controls for Federal Information Systems. The controls selected or planned
must be documented in a system security plan and tied to NIST SP 800-53.

     (2) Nine of the 12 plans reviewed did not identify the overall FIPS 199 categorization
for the system or contained inconsistent infonnation within the plan regarding the
categorization level selected. FIPS 199 defines security categories for infonnation
systems based on potential impact on organizations, assets, or individuals should there be
a breach of security-that is, a loss of confidentiality, integrity, or availability. FIPS 199
requires agencies to select an overall security category for the infonnation system using a
high watennark approach lO . Therefore, it is especially important for the overall FIPS 199
categorization to be included in the plan when there are various impact levels contained
in one infonnation system.

    (3) Five of the 12 plans reviewed did not adequately define the roles and
responsibilities for the system. According to NIST SP 800-18, a designated system
owner must be identified in the security plan. In addition, an authorizing official and an
individual responsible for security of the system must be identified in the security plan
for each system.

    (4) Five of the 12 plans reviewed did not contain the rules ofbehavior for the system.
The rules of behavior, which are required by OMB Circular A-130, Appendix III, and is a
security control contained in NIST SP 800-53, should clearly delineate responsibilities
and expected behavior of all individuals with access to the system. The rules should state
the consequences of inconsistent behavior or noncompliance and be made available to
every user prior to receiving authorization for access to the system.

  b. Ofthe 12 systems reviewed, 8 system POA&Ms did not contain infonnation
needed to track and correct security weaknesses identified in the systems. Specifically:



10 The high watermark approach required by FIPS 199 is the maximum potential impact values for each
security objective (confidentiality, integrity, and availability) from the information type's resident on the
system.

                                                 Page 20
                               National Archives and Records Administration
                                                                             OIG.Audit Report No. 08-05


    (1) Six of the 12 systems did not identify corrective actions to be taken to eliminate
the weakness

    (2) Eight of the 12 systems did not provide an estimate of the resources required to
take the corrective action

    (3) Six of the 12 systems did not identify the estimated completion dates for
eliminating the weaknesses. In addition, for two POA&Ms where completion dates were
provided, the dates had passed and the POA&M was not updated to either report the item
as completed or revise the milestones.

 (4) Two of the 12 systems did not provide information about the status of corrective
actions. We noted the status for all the weaknesses identified in seven of the POA&Ms
was "ongoing."

According to GAO Standards for Internal Control in the Federal Government,
November 1999, the organization's control environment provides discipline and structure
as well as the climate which influences the quality of internal control. Agency
management plays a key role in providing leadership in this area, especially in providing
guidance for proper behavior and removing temptations for unethical behavior.
According to the CIO, she was aware the system security plans were not complete and
believed that one reason why the plans were not complete was due to the strict deadline
she established for re-accreditation of the systems in order to get the systems removed
from the OMB Watch-List.

NH officials made the decision to not fully update the system security plans because it
would not be possible to complete the task within the deadline. Specifically, NH officials
developed a way to circumvent controls in the C&A process by completing only basic
updates to the security plans and then listing the incomplete security plan as a deficiency
in the system POA&M. As a result, the system security plans were not updated and do
not contain the information required by NIST SP 800-18. In addition, NH typically
determines the actions to be taken and the milestone dates for completion and inputs the
information into the system POA&M however, due to resource constraints and pressure
to complete the reaccreditations, this information had not been updated for all systems.

Although the NARA C&A Methodology directs the information system owner to ensure
that the security plan is complete and that the plan contains enough detail to evaluate the
system's security, NH officials did not hold the system owner accountable for the
security plan and did not review the C&A package to ensure that the system security plan
or the POA&M was completed before the systems were re-certified and accredited.

The contractor responsible for the certification and accreditation packages originally
recommended interim authorization to operate 11 decisions for several NARA systems

II According to NIST SP 800-37, an interim authorization to operate is rendered when the identified
security vulnerabilities in the information system resulting from deficiencies in the planned or implemented
security controls are significant but can be addressed in a timely manner. An interim authorization
provides a limited authorization to operate the information system and acknowledges greater risk to the

                                                 Page 21
                              National Archives and Records Administration
                                                                             OIG Audit Report No. 08-05


until the weaknesses identified in the POA&Ms were mitigated. This recommendation
was rejected by the Certifying Official and, without addressing the security weaknesses
in the system POA&Ms, the Certifying Official had the contractor revise the certification
statements to recommend authorization to operate the systems. In addition, language
requiring weaknesses in the POA&M to be corrected within 180 days was removed from
the certification statements. We noted that based on the Certifying Official's direction,
the contractor recommended 11 systems be given authorization to operate. This decision
may not have been appropriate based on the vulnerabilities identified during the C&A
process and the risks presented by those vulnerabilities.

In FY 2006 NH officials identified a reportable condition regarding documentation
because of the incomplete C&A documentation. During interviews, NH officials
indicated documentation produced had little impact on the quality of the C&A process or
information security because the documents are not used once created. System
documentation produced should provide valuable information as to the security controls
in place for the system, and should be viewed as documentation ofthe structured process
of planning adequate, cost-effective security protection for a system.

Recommendation 12. The Assistant Archivist of Information Services should develop
and implement management controls to monitor and enforce compliance with NIST SP
800-37 and NARA C&A policy.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




Limited Assurance Exists over Security Control Testing

Based on our review of the security test and evaluation results, evidence did not exist to
verify the tests were actually performed to the extent detailed in the test plans. This
occurred because NH officials did not have an adequate process in place to monitor the
contractor's performance. FISMA requires periodic testing and evaluation of the security
controls in place for agency systems. Without adequate testing, NARA lacks assurance
security controls are in place and working as intended to protect its systems and data.

NH officials used contractors to perform most of the security control testing this year.
According to the test plan used, several tests required the tester to examine logs and
access lists, interview personnel, or verify security configurations. However, work
documented in the test results did not detail the extent to which the contactor followed
the written test plan, and supporting documentation reviewed by the contractor during the
testing was not retained.


agency for a specified period of time. When the security-related deficiencies have been adequately
addressed, the interim authorization should be lifted and the information system authorized to operate.

                                                 Page 22
                              National Archives and Records Administration
                                                                            OIG Audit Report No. 08-05


NH officials did not have an adequate process in place to monitor the testing performed
by contractors. Instead, NH officials required the contractor to record only their name,
the date the test was conducted, and whether the test passed or failed. According to an
NH official, the contractor was not required to document work performed and NH
officials did not review any of the tests results to verify the accuracy of the tests. The
information recorded in the test results does not provide assurance the test was conducted
or the results of the testing can be relied upon.

Recommendation 13. The Assistant Archivist ofInformation Services should develop a
process to monitor the contractor's performance to verify testing was performed to the
extent detailed in the test plans and review the security test and evaluation results to
ensure the results are reasonable.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




Two National Security Systems were not Accredited

Two classified national security systems continued to operate even though the systems
were last accredited 12 in 1997. This occurred because NH officials did not take action to
obtain an accreditation statement until 2006. The Director Central Intelligence Directive
6-3 requires an accreditation decision be re-evaluated every three years or whenever any
security relevant change occurs. As a result, responsibility and accountability for the
security ofthe system has not been accepted.

NH officials sent a memorandum to the accrediting authority at the Central Intelligence
Agency (CIA) alerting the agency official the systems had not been re-accredited since
the original accreditation was received in 1997. According to NH officials, they tried to
locate the accrediting authority since 2001, but after September 11, 2001, CIA officials
had higher priorities than the re-accreditation ofNARA systems and it was not until
recently that contact was re-established with the accrediting authority.

NARA continues to operate the systems even though the risks presented by the systems
have not been formally accepted.

Recommendation 14. The Assistant Archivist of Information Services should develop
and implement a mechanism to monitor system accreditations for NARA's National
Security Systems to ensure the systems are re-certified and accredited at least every three
years.



12 System accreditation is the official management decision to permit operation of an information system in
a specified environment at an acceptable level of risk based on the implementation of an approved set of
technical, managerial, and procedural safeguards.

                                                 Page 23
                              National Archives and Records Administration
                                                                   OIG Audit Report No. 08-05



Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




                                           Page 24
                        National Archives and Records Administration
                                                                     OIG Audit Report No. 08-05



              CONTINGENCY PLANNING/DISASTER RECOVERY 


IT systems are vulnerable to a variety of disruptions, ranging from mild (e.g., short-term
power outage, disk drive failure) to severe (e.g., equipment destruction, fire) from a
variety of sources such as natural disasters to terrorists actions. While many
vulnerabilities may be minimized or eliminated through technical, management, or
operational solutions as part ofthe organization's risk management effort, it is virtually
impossible to completely eliminate all risks. In many cases, critical resources may reside
outside the organization's control (such as electric power or telecommunications), and the
organization may be unable to ensure their availability. Thus effective contingency
planning, execution, and testing are essential to mitigate the risk of system and service
unavailability.

According to OMB Circular A-130, Management of Federal Information Resources,
Appendix III, Security of Federal Information Resources, for major applications, Federal
agencies should establish and periodically test the capability to perform the agency
function supported by an application in the event of failure of its automated support.

According to NIST SP 800-34, Contingency Planning Guide for Information Technology
Systems, June 2002, IT and automated information systems are essential to an
organization's success, therefore, it is critical the services provided by these systems are
able to operate effectively without excessive interruption. Contingency planning
supports this requirement by establishing thorough plans and procedures and technical
measures enabling a system to be recovered quickly and effectively following a service
disruption.

Recovery Strategy for Restoring Mission Critical IT Systems is Inadequate

Of the 12 systems reviewed, 7 systems were identified as critical to NARA's mission,
however, a recovery strategy was not defined in the contingency plans for these systems.
This occurred because a business impact analysis had not been conducted to identify
critical NARA processes and NH officials did not believe there was any essential service
or core business function of the agency that required restoration in any particular time
period. According to NIST SP 800-34, the business impact analysis is a key step in the
contingency planning process and recovery strategies are developed based on the
information obtained in the business impact analysis. By not having a defined recovery
strategy, NARA does not have assurance that critical NARA systems can be recovered
within the time period needed.

Specifically, the contingency plans for six of the mission critical systems stated that the
recovery goal was to "revert to manual processing, if possible, and restore system
functionality with vendor-supplied hardware as available." However, this strategy does
not provide recovery capability over the full spectrum of incidents because performing
the business process using manual means is typically acceptable for only short term
disruptions.



                                            Page 25
                          National Archives and Records Administration
                                                                             DIG Audit Report No. 08-05


According to NIST SP 800-34, a key step in the contingency planning process is the
business impact analysis. A business impact analysis correlates specific system
components with the critical services they provide, and based on that information,
characterizes the consequences of a disruption to the system components. Conducting
this type of analysis requires input from the users and business process owners as well as
other associated groups. The recovery strategy selected is based on the information
identified during the business impact analysis.

According to an NH official, a business impact analysis may exist as a formal document
for some systems, but most of the contingency plans are based on an implied business
impact analysis done by the system owner when the security plan was written. That same
NH official also acknowledged:

       "The basic of assumption of almost all the contingency plans is based on the fact
       that there is no essential service or core business function of the agency that
       requires the restoration of the system in any particular time period, the exception
       is NARANet, thus, there is no real need for a formal linkage between the
       operational aspects of the current contingency plan and a business impact
       analysis."

However, multiple system owners identified their systems as critical to the functioning of
NARA. Therefore, system owners and NH officials need to work together to determine
appropriate recovery strategies.

Although NH officials identified NARANet (NARA's general support system) as the
only essential system, a recovery strategy and recovery procedures did not exist for the
system. NH officials provided an NH Disaster Recovery Plan dated July 30,2007, which
states as an underlying assumption that NH needs to provide IT services for NARA in the
event of a major disruption to its operational IT infrastructure and critical business
process. However, the Disaster Recovery plan does not detail the procedures to be
followed in order to facilitate the recovery of capabilities at an alternate site.

Federal policy and guidance requires the development and maintenance of contingency
plans to provide procedures and capabilities for recovering major applications or general
support systems. Without a recovery strategy for its mission critical systems, NARA
does not have a corrective control in place to restore IT operations quickly and effectively
following a service disruption.

We issued Management Letter 07-12, "Contingency Planning for IT Systems," on
September 20, 2007, to notify the Archivist regarding the significant risk to agency
operations because adequate plans did not exist, and coordination among NARA Senior
Managers had not been established, to ensure IT systems critical to NARA's mission
could be recovered quickly and effectively following a service disruption or disaster.

Recommendation 15. The Archivist of the U.S. along with NARA Senior Management
and Information Owners should:




                                                Page 26
                             National Archives and Records Administration
                                                                            OIG Audit Report No. 08-05


       a. Conduct a Business Impact Analysis following the instructions in NIST SP
800-34 to identify NARA's critical business processes and the systems supporting those
processes; and

       b. Develop recovery strategies for at least those systems identified as critical
based on the outcome of the Business Impact Analysis.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




No Record of Reviews of, or Changes to, Contingency Plans

The contingency plans for 11 ofthe 12 systems reviewed had not been updated since the
initial plans were created. This occurred because NH officials did not believe the
contingency plans needed to be updated or that it was their responsibility to update the
contingency plans. NIST SP 800-34 states that it is essential for the contingency plan to
be reviewed and updated regularly to ensure new information is documented and
contingency measures are revised if required. As a result, the contingency plans may
contain outdated information and may not accurately reflect system requirements.

Of the 11 contingency plans reviewed 13, nine were dated 2004, and one was dated 2006.
The contingency plan for NARANet was the only plan dated 2007. There were no entries
in the Record of Changes section in 10 of the 11 contingency plans to support that the
contingency plans were reviewed at least annually, as required by NIST guidance.
According to NIST SP 800-34, the plan should be reviewed at least annually or whenever
significant changes occur to any element of the plan.

According to an NH official, the current system documentation was an accurate reflection
of the "as is" state of system contingency planning. The CIO stated that ideally the
system owner should be responsible for the contingency plan and should know what to do
and be prepared if the system was unavailable for a few days because NH cannot ensure
that users for every system are prepared for a system failure. However, instead of
holding the system owners accountable, another NH official directed the contractor who
originally wrote the contingency plans in 2004, to review and update the plans because
the NH official was fairly certain that in many of the plans, the system inventory and
points of contact would be out of date.

Recommendation 16. The Assistant Archivist of Information Services should:

       a. Revise the IT Security Policy to identify who is responsible for reviewing the
system contingency plans and revising the plans to address changes or problems
encountered during plan implementation, execution, or testing;

13   There was one contingency plan prepared for the two classified AERIe systems.

                                                  Page 27
                               National Archives and Records Administration
                                                                             OIG Audit Report No. 08-05


       b. Implement management controls to verify contingency plans are reviewed and
updated at least annually as required by NIST SP 800-34; and

      c. Update the contingency plans, if needed, and record any changes made in the
Record of Changes section of the plans.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




Contingency Plans were not Adequately Tested

Testing of the system contingency plans was not adequate and did not meet the intent of
NIST guidance. Specifically, tabletop testing of the contingency plans for 1014 ofthe 12
systems reviewed did not evaluate the viability of the plan procedures, determine the
ability of recovery staff to implement the plan, or identify deficiencies in the plan. This
occurred because NH officials believed testing the viability of the contingency plans was
outside ofNH's responsibility. According to NIST SP 800-34, contingency plan testing
is a critical element of a viable contingency capability. By not testing the viability of the
contingency plans, deficiencies within the plans cannot be identified and addressed, and
NARA does not have assurance the plan can be implemented quickly and effectively in
the event of a disaster.

Contractor's used a standard test plan to perform the contingency plan testing. Although
the test plan included a section to test the manual or alternate procedures, the actual tests
conducted did not test the manual or alternate procedures. For example, the test ofthe
contingency plan for --------------redacted, b(2)------------------------ consisted of re-typing
the contingency plan procedures in the test report and the system owner informing the
individual performing the test that the system does not have an alternate manual process.
The tabletop discussion held did not include a scenario or simulated incident to walk
through how the system owner should react in certain situations. In addition, key
participants 15 were not included in the tabletop discussion and roles, responsibilities and
actions to be taken were not discussed.

The tests performed were limited because, according to NH officials, ensuring employees
know what to do if the systems they use are not available would be a business continuity
function and not a contingency plan function. Therefore, NH officials believed testing
the viability of the contingency plan was outside ofNH's responsibility. Specifically,
one NH official stated the information system is a utility to assist employees in
performing their jobs and it is not NH's responsibility if the system owner is unable to


14 The contingency plan for -------..,------redacted, b(2)--------------- had not been tested at the time of 


our review. 

15 Key participants identified in the contingency plans include a Contingency Plan Director, Contingency 

Plan Manager, Damage Assessment Team, and Contingency Plan Recovery Team. 


                                                 Page 28
                              National Archives and Records Administration
                                                                        OIG Audit Report No. 08-0S


perform their mission without that system because that would be a continuity of
operations plan function. A contingency plan differs from a continuity of operations plan
because it provides the recovery and resumption procedures for an IT system, including
procedures for recovering a system resulting from minor disruptions that do not
necessarily require relocation to an alternate site.

NIST SP 800-34 further states plan testing is a critical element of a viable contingency
capability because testing enables plan deficiencies to be identified and addressed.
Testing also helps evaluate the ability of recovery staff to implement the plan quickly and
effectively. Each IT contingency plan element should be tested to confirm the accuracy
of the individual recovery procedures and the overall effectiveness of the plan. By not
testing the contingency plans, NARA has no assurance the plans will actually work and
may severely impact NARA's ability to recover its IT systems in the event of a disaster.

Recommendation 17: The Assistant Archivist for Information Services, along with the
system owners, should develop tests of the system contingency plans to evaluate the
viability of the plan procedures and determine the ability of recovery staff to implement
the recovery strategy identified.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




                                            Page 29
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 08-05



    PROGRAM-LEVEL PLAN OF ACTION AND MILESTONES PROCESS

The program-level POA&M did not include all IT security weaknesses and
vulnerabilities known to management. This occurred because NH officials did not
establish a formal process to manage, prioritize, and track IT security weaknesses
identified in the NARA Information Security Program. FISMA requires that federal
agencies develop a process for planning, implementing, evaluating, and documenting
remedial action to address any deficiencies in the information security policies,
procedures, and practices of the agency. Without a complete POA&M, the CIO may not
have proper visibility ofIT security weaknesses and can not use the POA&M as an
effective management tool to request and allocate resources for correcting IT security
weaknesses.

FISMA requires that federal agencies develop a process for planning, implementing,
evaluating, and documenting remedial action to address any deficiencies in the
information security policies, procedures, and practices of the agency. OMB Memoranda
02-01 and 04-25 provided instructions on how to implement a POA&M process and the
information needed to report and track weaknesses identified. The purpose of the
POA&M is to help agencies in identifying, assessing, prioritizing, and monitoring the
progress of corrective efforts for security weaknesses found in programs and systems.

According to NH officials, the program-level POA&M consisted of a Status of Audits
and Evaluations spreadsheet maintained by NH and an Audit Action Summary database
maintained by NARA Policy and Planning Staff (NPOL). However, these tracking
mechanisms related to open audit recommendations and did not focus on IT security
weaknesses. In addition, the spreadsheet and database did not include all the information
required by OMB such as prioritization of the weaknesses, funding needed to correct the
weakness, or the severity of the weakness.

In addition to audits, IT security weaknesses can be identified through internal reviews
done by or on behalf of the agency such as annual security control testing and the C&A
process. C&A testing conducted for NARA systems in FY 2007 identified systemic
weaknesses within the NARA IT Security Program. However, an NH official stated he
was unsure where to report these weaknesses because he did not want to include the same
weakness on each system POA&M. Instead, the NH official included the weaknesses on
the POA&M for the NARANet system. However, reporting the weaknesses on the
NARANet system POA&M removed the CIO's visibility of the weaknesses because the
CIO did not review system-level POA&Ms.

In addition to the systemic weaknesses, NH officials did not include all weaknesses
identified during the 2nd quarter 2007 vulnerability scan. According to NH officials, all
of the vulnerabilities had been corrected; however, we found 84 Remedy tickets related to
the 2nd quarter 2007 vulnerability scan that had not been addressed.

Based on interviews with NH and NPOL officials, there appeared to be a disconnect
between the POA&M process required by OMB and what NARA officials believed the
POA&M process should be. NH officials believed all pertinent information was already

                                            Page 30
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 08-05


included in the Status of Audits and Evaluations spreadsheet, therefore, they did not want
to "create another document with no purpose."

During the audit, NH officials revised their Status of Audits and Evaluations spreadsheet
with the intent of meeting the minimum OMB requirement for a program-level POA&M.
Our review ofthe revised POA&M revealed that NH officials changed the format of the
POA&M but continued to omit IT security weaknesses known to management.

The Exhibit 300 "Capital Asset Plan and Business Case" for the NARA IT Infrastructure
included an IT security investment request of $9.8 million for FY 2007 to maintain and
improve the level oflT security. The CIO's centralized security budget covered the
expenses for centralized monitoring and response, enterprise-wide security infrastructure
(e.g. firewalls), training and awareness, and certification and accreditation activities.
This funding for IT security was provided without ensuring NH was making significant
progress in overcoming security weaknesses. By not utilizing the POA&M as a tool to
assist the CIO in identifying, assessing, prioritizing, and monitoring the
progress of corrective efforts for security weaknesses found in programs
and systems, the CIO may not be appropriately allocating funding.

Recommendation 18. The Assistant Archivist for Information Services should develop
a plan of action and milestone process that provides visibility over all IT security
weaknesses and issue written procedures regarding that process.

Management Comment(s)

The Assistant Archivist for Information Services concurred with the recommendation.




                                            Page 31
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 08-05


            SECURITY AWARENESS TRAINING FOR INDIVIDUALS WITH 

                  SIGNIFICANT SECURITY RESPONSIBILITIES 


Only 35 ofthe 67 (52%) individuals with significant security responsibilities 16 completed
the NARA Managers and Information System Security Officer (ISSO) training course
and IT contractors were not required to complete the training even though they have
significant security responsibilities. The purpose of this additional security awareness
training was to provide current information about changes in IT security doctrine and
reference policy and guidance affecting IT security programs. This occurred because NH
officials did not have a process to track which individuals at NARA had significant
security responsibilities and believed contractors met the training requirement based on
job descriptions in the contracts. FISMA requires agencies to provide training to
employees and contractors to inform them of the risks associated with their activities and
their responsibilities in complying with agency policies and procedures designed to
reduce these risks. If employees do not receive training at a level associated with their
responsibilities, NARA risks security breaches resulting from employees who are not
fully aware of their security roles and responsibilities.

NARA Notice 2007-177 "Mandatory IT Security Training," May 21, 2007, stated there
were three types of training to select depending on your position and role within the
organization. The notice required product owners, IT managers, and security
professionals to take the "NARA Managers and Information System Security Officer"
training course. According to an NH official, there was no clear definition of who
constituted "people with significant security responsibilities" therefore, the NH official
considered only ISSOs (approximately14 employees) to need the additional training.
Further, the NH official stated NARA Notice 2007-177 was based on the notice from a
previous year and should not have included the requirement for NARA managers to take
the training in FY 2007.

NH officials did not require IT contractors to complete the training even though the
contractors have significant security responsibilities over NARA IT assets and are IT
security professionals. For example, IT contractors at NARA have access to NARA
servers and provide access to NARA systems. Therefore, these contractors have
significant security responsibilities at NARA and should have been required to take the
additional training.

According to the documentation provided by NH officials, over 250 individuals
completed the "NARA Managers and Information System Security Officer" training
course. However, NH officials identified only 67 individuals as required to take the
training. An NH official stated the list was comprised of current system owners, IT
managers, and IT security professionals, but that the course was not targeted towards
contractors.

OMB Memorandum 07-19 contained questions and answers to assist agencies in
answering the FISMA reporting questions. One question asked "Is it the agency's

16   The list of significant security personnel was provided by NH.

                                                    Page 32
                                 National Archives and Records Administration
                                                                     OIG Audit Report No. 08-05


responsibility to ensure contractors have security training if they are hired to perfonn IT
security functions? Wouldn't they already be trained by their companies to perfonn this
work?" OMB responded "The agency should include in its contract the requirements for
level of skill and experience. However, contractors must be trained on agency-specific
policies and procedures, including rules of behavior." The CISO used this response to
explain why NH contractors were not required to take the additional training course.
According to the CISO, NlI contractors satisfy the training requirement because their job
descriptions prescribe the skills and experience needed to perfonn the job and the basic
awareness course provided the agency-specific awareness and rules of behavior.

The purpose of the "NARA Managers and ISSOs" training course was to provide NARA
IT system owners and managers, program and project managers, and persons providing
IT security services with a source of current, up to date infonnation about changes in IT
security doctrine and reference links to policy and guidance affecting IT security
programs. According to the training course introduction, this course was particularly
targeted for those individuals whose jobs involve significant security responsibilities,
associated with the management or technical oversight ofNARA IT systems. Therefore,
this course should have been required for all NARA employees with significant security
responsibilities, including contractor employees.

Recommendation 19. The Assistant Archivist oflnfonnation Services should develop a
process to identify employees with significant security responsibilities.

Management Comment(s)

The Assistant Archivist for Infonnation Services concurred with the recommendation.

Recommendation 20. The Assistant Archivist for Infonnation Services should require
all individuals with significant security responsibilities, including contractor employees,
to complete training based on the risk provided by their activities and develop a process
to monitor compliance.

Management Comment(s)

The Assistant Archivist for Infonnation Services concurred with the recommendation.




                                            Page 33
                          National Archives and Records Administration
                                                                     OIG Audit Report No. 08-05



                                 PRIVACY PROGRAM 


Privacy Impact Assessments (PIAs) did not include infonnation related to how personally
identifiable infonnation (PH) in the system would be secured and did not identify what
choices were made as a result of perfonning the PIA. This occurred because the PIA
template used did not contain a section for this infonnation and Privacy officials were not
aware these statements were required. OMB directed agencies to conduct PIAs and
provided specific instructions on the infonnation to be included. Without this
infonnation, the public, whose infonnation may be stored in the system, does not have
assurance their infonnation is being properly protected.

We reviewed 10 PIAs and found the PIAs did not:
   (a) affinn the agency is following IT security requirements and procedures;
  (b) acknowledge the agency has conducted a risk assessment, identified security
controls to protect the system, and implemented those controls;
   (c) describe the monitoring, testing and evaluating to ensure controls continue to work
properly and safeguard infonnation;
   (d) provide a point of contact for any additional questions from users; or
   (e) identify what choices the agency made regarding an IT system or collection of
infonnation as a result of perfonning the PIA.

OMB Memorandum 03-22, OMB Guidance for Implementing the Privacy Provisions of
the E-Government Act of2002, September 30, 2003, directs agencies to conduct reviews
of how infonnation about individuals is handled within their agency when they use IT to
collect new infonnation, or when agencies develop or buy new IT systems to handle
collections of personally identifiable infonnation. OMB's Implementation Guidance for
Section 208 of the E-Government Act requires agencies to conduct a privacy impact
assessment for electronic infonnation systems and collections and, in general, make them
publicly available. OMB 03-22 provides guidance on which systems require a PIA and
the specific infonnation that must be analyzed and described in the PIAs.

A PIA was available on the Archives website for those systems identified as containing
PH, however, the template used for the PIAs did not directly match to the OMB 03-22
required contents. According to a privacy officer, the fonnat chosen was a collaborative
effort between NH and NARA General Counsel Officials. The Privacy Official believed
all the required infonnation was included and was not aware of the additional
requirements. Privacy officials received clarification from OMB regarding the content
required and agreed to revise the PIAs to include this additional infonnation.

Recommendation 21. The Senior Agency Official for Privacy, in coordination with the
Assistant Archivist for Infonnation Services, should revise the existing Privacy Impact
Assessments and the Privacy Impact Assessment template to incorporate infonnation
related to how Personally Identifiable Infonnation in the system is secured and identify
what choices were made as a result of perfonning the Privacy Impact Assessment.


                                             Page 34
                          National Archives and Records Administration
                                                                   OIG Audit Report No. 08-05


Management Comment(s)

The Senior Agency Official for Privacy concurred with the recommendation.




                                           Page 35
                        National Archives and Records Administration
                                                                   OIG Audit Report No. 08-05



              APPENDIX A. IT SYSTEMS REVIEWED AND
                        RESULTS OF THE REVIEW

               Authorized    Complete                         Updated          Adequate
                                             Complete
  System           to        Security                        Contingency      Contingency
                                             POA&M?
                Operate?      Plan?                            Plan?           Plan Test?
--redacted,
                  Yes            No              No                No               No
b(2)-­
--redacted,
                  Yes           Yes              No                No               No
b(2)-­
--redacted,
                  Yes            No              No                No               No
b(2)-­
--redacted,
                  No             No              Yes               No               No
b(2)-­
--redacted,
                  Yes            No              No                No               No
b(2)-­
--redacted,
                  Yes            No              Yes               No               No
b(2)-­
--redacted,
                  Yes            No              No                No               No
b(2)-­
--redacted,
                  Yes            No              Yes               No               No
b(2)-­
--redacted,
                  Yes            No              No                No              N/A
b(2)-­
--redacted,
                  Yes            No              No                No               No
b(2)-­
--redacted,
                  Yes            No              Yes               Yes             Yes
b(2)-­
--redacted,
                  Yes            No              No                No               No
b(2)-­




                                           Page 36
                        National Archives and Records Administration
                                                                                        Appendix B 

                                                                                         Page 1 of 4 





                   National Archives and Records Administration
                                                                              .      8601 Ad~iphi Road
                                                                   College Park, Maryland-~t(f7-40-6001


Date:        March 17,2008

To:          Paul Brachfield (OIG)

From:        Martha Morphy (NH)

Subject:    Comments on the OIG Audit Report No. 08-05: Audit ofNARA's Compliance with the
            Federal Information Security Management Act for FY 2007

            We are in receipt of your report and would like to thank you for the opportunity to respond
            to its [mdings and recommendations. We would particularly like to express our appreciation
            for the hard work done by your staff and auditors in the preparation ofthe report, the effort
            has yielded a product which is irformative and which will be of significant value to our
            security program.

            We concur with all of the recommendations in the report, and will provide a summary
            response here, with details in the auditaction plan. Otherwise, the findings of the report
            provide a detailed view of problems which are the subject of more general efforts
            associated with our plan to remove the external material weakness that was declared in the
            FY 2007 PAR, and where steps have been taken to address these problems, they will be
            detailed in our audit action plan.


            General Response to Recommendation 1.




           Recommendation 1: Concur

           General Response to Recommendations 2-10

           The report notes that while a number of incidents recorded by NARA's IDS systems were
           not reported to US CERT within specified timeframes, these incidents were all resolved
           internally and on the basis of standard operating procedures which did not require the
           convening of the NARA CIRT. We believe that these discrepancies can be addressed.
           Efforts to revise and perfect the Incident Response Policy and the guidance in the
           Handbook are ongoing, and will be described in the Audit Action Plan.

           Recommendation 2: Concur
           Recommendation 3: Concur
           Recommendation 4: Concur
           Recommendation 5: Concur
           Recommendation 6: Concur
                                                                             Appendix B 

                                                                              Page 2 of 4 





Recommendation 7: Concur 

Recommendation 8: Concur 

Recommendation 9: Concur 

Recommendation 10: Concur 



General Response to Recommendations 11-13.

Efforts to address process and documentation limitations of the current Certification and
Accreditation packages are ongoing as part of the response to the Material Weakness.
Specific initiatives which address the recommendations in this section will be detailed in
the audit action plan.

Recommendation 11: Concur
Recommendation 12: Concur
Recommendation 13: Concur


General Response to Recommendation 14.

In 2006 NARA issued updated versions ofNARA Directive 202 and Directive 804 which
dearly established the roles and responsibilities necessary to comply with this
recommendation.

At that time NAS and NHI began a review ofthe certification status ofthe SCI systems.
That review determined that NARA had consistently andproperly certified the SCI
systems on a regular basis, but had not been able to maintain contact with the accrediting
agency which sponsors those systemsfor the DNI. Resource constraints in the office of
the DNI are a reality, and despite efforts to secure accreditation decisions, there are
currently three SCI systems which have been tested and recommendedfor certification,
but which have no accreditation decision.

The DAA will be meeting with NARA program officials to establish actionable dates/or
the certification ofthese systems, and those details will be provided in the audit action
plan..

Recommendation 14: Concur


General Response to Recommendations 15-20.

We concur with the findings and the recommendations. Actions being taken in response to
the material weakness and the reportable condition will be reviewed to assure that the
specifics of these findings are addressed by those initiatives.

Recommendation 15: Concur
                                                                      Appendix B 

                                                                       Page 3 of 4 





Recommendation 16:    Concur
Recommendation 17:    Concur
Recommendation 18:    Concur
Recommendation 19:    Concur
Recommendation 20:    Concur


General Response to Recommendation 21.

This will be addressed by the Privacy Officer.



Please call -   IJ(~)-- at 301 . . 837--- for any questions regarding this response.



                    ~i/J~                  .
M     "     MORP~Y     V .                 .
Assistant Archivist for Informati   Services
                                                                                    Appendix B 

                                                                                     Page 4 of 4 





                   National Archives and Records Administration
                                                                                8601 Adelphi Road
                                                                College Park Maryland _2@7!!.0-6001


Date:      March 18,2008

To:        James Springs, OIG

From:      Gary M. Stern, NGC

Subject:   OIG FISMA Audit Report

           The Office of General Counsel (NGC) concurs with privacy related recommendation
           21, found in the Office of Inspector General's FISMA Audit Recommendations.

           Any questions related to this memo can be addressed to Ramona Oliver, NARA Privacy Act
           Officef.'



                  ~'SiERN1th
           G eral Counsell
           S'enior Agency Official for Privacy
